<html>
<title> - EXAMINING THE TRUMP ADMINISTRATION'S. AFGHANISTAN STRATEGY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                  EXAMINING THE TRUMP ADMINISTRATION'S
                          AFGHANISTAN STRATEGY

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 28, 2020

                               __________

                           Serial No. 116-83

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]     


                  Available on: http://www.govinfo.gov
                           oversight.house.gov
                           
                           
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-578 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
                           
                           
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   Jim Jordan, Ohio, Ranking Minority 
    Columbia                             Member
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Debbie Wasserman Schultz, Florida    Michael Cloud, Texas
John P. Sarbanes, Maryland           Bob Gibbs, Ohio
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Ralph Norman, South Carolina
Robin L. Kelly, Illinois             Chip Roy, Texas
Mark DeSaulnier, California          Carol D. Miller, West Virginia
Brenda L. Lawrence, Michigan         Mark E. Green, Tennessee
Stacey E. Plaskett, Virgin Islands   Kelly Armstrong, North Dakota
Ro Khanna, California                W. Gregory Steube, Florida
Jimmy Gomez, California              Fred Keller, Pennsylvania
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California
Deb Haaland, New Mexico

                     David Rapallo, Staff Director
                       Dan Rebnord, Chief Counsel
                          Amy Stratton, Clerk
               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051
                                 
                                 ------                                

                   Subcommittee on National Security

               Stephen F. Lynch, Massachusetts, Chairman
Jim Cooper, Tennesse                 Jody B. Hice, Georgia, Ranking 
Peter Welch, Vermont                     Minority Member
Harley Rouda, California             Paul A. Gosar, Arizona
Debbie Wasserman Schultz, Florida    Virginia Foxx, North Carolina
Robin L. Kelly, Illinois             Mark Meadows, North Carolina
Mark DeSaulnier, California          Michael Cloud, Texas
Stacey E. Plaskett, Virgin Islands   Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Clay Higgins, Louisiana
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on January 28, 2020.................................     1

                               Witnesses

The Honorable John F. Sopko, Special Inspector General for 
  Afghanistan Reconstruction
Oral Statement...................................................     5

Written opening statements and statements for the witnesses are 
  available on the U.S. House of Representatives Document 
  Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              

Documents entered into the record during this hearing and 
  Questions for the Record (QFR's) are listed below/available at: 
  docs.house.gov.

  * Letter to Secretary Pompeo; submitted by Rep. Maloney.

  * Report to Congress offered by the Department of Defense in 
  coordination with the Department of State; requested by Rep. 
  Lawrence (to be submitted).

  * Letter to the editor of the Washington Post; requested by 
  Rep. Sopko for the record (to be submitted).


 
                  EXAMINING THE TRUMP ADMINISTRATION'S.
                          AFGHANISTAN STRATEGY

                              ----------                              


                       Tuesday, January 28, 2020

                   House of Representatives
          Subcommittee on National Security
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen F. Lynch 
(chairman of the subcommittee) presiding.
    Present: Representatives Lynch, Welch, Kelly, Plaskett, 
Lawrence, Maloney, Hice, Foxx, Cloud, Green, and Jordan.
    Also present: Representative Massie.
    Mr. Lynch. The subcommittee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    This hearing is entitled, examining the Trump 
Administration's Afghanistan Strategy, and I now recognize 
myself for five minutes to give an opening statement.
    Good morning, everyone, and welcome to the subcommittee on 
national security's first hearing of 2020. We begin this year 
as we did in 2019 with an examination of the U.S. war in 
Afghanistan. After 18 years of war in Afghanistan, this is now 
the United States' longest running conflict and has taken the 
lives of 2,400 of our brave men and women in uniform and come 
at the cost of hundreds of billions, if not a trillion, in 
taxpayer dollars. Unfortunately, after almost two decades of 
fighting, al-Qaida and the Taliban, the situation in 
Afghanistan has continued to deteriorate and today is, at best, 
a stalemate.
    Today the Government of Afghanistan lacks control over 
about half of the country and it is estimated that the Taliban 
now has about 60,000 full-time fighters compared to 20,000 in 
2014. Meanwhile, ISIS-Khorasan, the Afghanistan branch of the 
Islamic State of Iraq and Syria, today compromises between 
2,000 and 4,000 fighters and continues to plot terrorist 
attacks against the United States and western democracies.
    Today's hearing comes after The Washington Post last month 
published hundreds of documents that revealed long-standing 
policy failures by multiple administrations in Afghanistan. 
These so-called Afghanistan papers were originally compiled by 
the special inspector general for Afghanistan reconstruction, 
or SIGAR as part of the agency's lessons learned project and 
they demonstrate how successive administrations, Democrat and 
Republican, have misled the American people about the conflict 
in Afghanistan. For example, Doug Lute, the, quote, ``war 
Czar'' for President Bush and Obama told SIGAR, the U.S. was, 
quote, ``devoid of a fundamental understanding of Afghanistan. 
We didn't know what we were doing,'' close quote.
    Other interviewees described efforts to distort statistics 
in order to hide a lack of progress in Afghanistan. U.S. 
military adviser and retired Army Colonel Bob Crowley told 
SIGAR that surveys were a, quote, ``totally unreliable, but 
reinforced that everything we were doing was right and we 
became a self-licking ice cream cone,'' close quote.
    The Trump Administration stated objectives in Afghanistan 
are, to quote, to achieve peace--excuse me--``to achieve a 
peace agreement that ensures Afghan soil is never used again by 
terrorists against the United States, its allies, or any 
country and allows American troops to return home'' close 
quote. And in August 2017, President Trump stated that, quote, 
``conditions on the ground, not arbitrary timetables, will 
guide our strategy,'' close quote.
    The purpose of today's hearing is to examine the strategy. 
Unfortunately, despite repeated invitations, the Department of 
State and the Department of Defense refuse to make witnesses 
available to testify before the committee today, so we have 
nobody from state, we have nobody from DOD.
    That's very disappointing, because I'm concerned that 
rather than implementing a coherent Afghanistan strategy, U.S. 
policy in the region is instead being driven by the latest 
impulse of the Commander-in-Chief. For example, in September 
2019, just days after Ambassador Zalmay Khalilzad announced the 
U.S. was nearing an agreement with the Taliban, President Trump 
abruptly and publicly canceled the secret meeting with the 
Taliban leadership at Camp David. He subsequently declared 
negotiations with the Taliban, quote, ``dead,'' only to restart 
them months later.
    President Trump and officials in this administration have 
also publicly acknowledged the United States' intent to 
withdraw from Afghanistan with or without a deal with the 
Taliban, which undermines our diplomats' leverage at the 
bargaining table.
    Earlier this month, National Security Adviser Robert 
O'Brien said in an interview, and I quote: ``I think we'll be 
in a position at some point soon whether it's with a deal or 
without a deal to reduce our military footprint in 
Afghanistan,'' close quote.
    In December 2019, Secretary of Defense Esper Stated that 
the U.S. would lower its force presence in Afghanistan, quote: 
``With or without a political agreement.'' I think everyone can 
understand how that decreases the sense of urgency on the part 
of the Taliban to reach any agreement with the United States if 
we're going to withdraw anyway, which is one of their demands.
    While we all desire to bring our sons and daughters home 
from nearly two decades of war, we must do so in a way that 
promises--excuse me--that promotes our national security 
objectives. To echo Special Inspector General Sopko, who is our 
guest today, when he testified before our subcommittee last 
year, we must plan not just for the day after a U.S. withdraw 
from Afghanistan, but for the months and years that follow. 
Only by doing so can we ensure the gains we have made for 
democracy and women's rights, in particular, in Afghanistan are 
not lost and that the sacrifices of our men and women in 
uniform have not been made in vain.
    It is, therefore, all the more urgent for Congress to 
exercise its constitutional responsibility to conduct oversight 
of the Trump Administration's strategy in Afghanistan, and for 
the administration to come here before Congress and explain its 
conduct and its strategy to the American people. Their refusal 
to do so today is extraordinarily troubling.
    By failing to appear, the Trump Administration is 
obstructing Members of Congress of both parties from evaluating 
U.S. policy in the region and denying the American people the 
answers they deserve about the war they have already sacrificed 
tremendously for.
    That being said, I'd like to thank our witness, Special 
Inspector General John Sopko for being here today; although, 
Mr. Sopko is not an administration witness nor does he 
represent the views of the Trump Administration, he has served 
a critical oversight function for many years.
    Identifying waste, fraud, and abuse across U.S. 
reconstruction programs in Afghanistan and I look forward to 
his continued insights as our subcommittee examines the 
potential national security consequences of an anticipated 
withdraw from Afghanistan.
    Before I return to the ranking member, I'd like to 
acknowledge that yesterday, military officials confirmed that a 
U.S. aircraft crashed earlier this weekend in Taliban 
controlled territory near Kabul. Although initial reports about 
the cause and extent of the damage are still coming in, I 
certainly hope that all passengers and crew are safe and 
accounted for.
    I now yield to the Ranking Member, Mr. Hice of Georgia, for 
his opening statement.
    Mr. Hice. Thank you very much, Mr. Chairman, and thank you 
Mr. Sopko for being here with us today. We appreciate you being 
available to provide testimony and I share disappointment, Mr. 
Chairman, that the Department of State and Defense cannot be 
here today. It's a challenging job before them, but a very 
important one for all of us to be involved with and to provide 
oversight, and I hope we'll be able to hear from them soon.
    It's been nearly 19 years since the United States began its 
efforts in Afghanistan after al-Qaida attacked our country, 
killed nearly 3,000 Americans in New York, the Pentagon, and 
Pennsylvania. Yet every time we talk about oversight of our 
efforts in Afghanistan, I believe we sound like a broken 
record.
    It's America's longest war and it's held that title for a 
long time now. To date, American taxpayers have spent $780 
billion on combat operations, 137 billion on reconstruction 
efforts since 2002, so we're pushing a trillion dollars here.
    During that time and in spite of that money, we've lost 
2,400 courageous American servicemembers during the conflict 
and one stat that often is overlooked is over 20,000 who have 
been wounded in action. Many of them very seriously.
    The United States has drawn down our military presence from 
a peak of about 100,000 under the Obama Administration to less 
than 14,000 to date. President Trump and his administration are 
trying to achieve a positive and enduring outcome in 
Afghanistan. In fact, on August 21, 2017, President Trump 
announced a strategy for Afghanistan and South Asia that 
included taking tougher positions with Afghanistan, further 
developing a strategic partnership with India, and not setting 
arbitrary timetables.
    Moreover, President Trump enabled Secretary of State Mike 
Pompeo to appoint a special envoy, Ambassador Khalilzad, to 
negotiate peace talks with the Taliban and the Afghan 
Government.
    Mr. Sopko, the last time you were here, we discussed the 
2019 high-risk report, and in that report, of course, it's 
released at the beginning of each new Congress, it identified 
eight high-risk U.S. reconstruction program areas that are 
vulnerable to waste, fraud, and abuse.
    So, I hope today that we're able to get some updates on how 
the administration and Afghan Government are making progress in 
those areas. A month or so after the 9/11 attacks, the U.S. 
mission in Afghanistan was clear. That was to root out al-Qaida 
and those that harbor and protected them and then to ensure 
that Afghanistan would not be a safe haven for future terrorist 
attacks. Obviously, that's not a very easy task. It required 
the U.S. to invest in the Afghan national defense and security 
forces so that they can protect their people and their Nation.
    My understanding is that the majority of the money 
appropriated for reconstruction has been for training and 
equipping the Afghan Defense Forces, and I would appreciate an 
update from you on how effective that money's been spent. I 
think it's important that we add some context to your testimony 
here today.
    As the chairman referred to last December, we saw the 
release of the Afghanistan papers from the lessons learned 
project that your office conducted in 2014. This investigation 
was a serious departure from your usual oversight, so today I'd 
like to learn a little bit more about the beginning of that 
project and just to hear some more about it. During that 
investigation, your team conducted interviews with over 600 
people, including NATO allies and Afghan officials, and I think 
what, at least, one thing that we all learn from the 
Afghanistan's papers is that war is complicated. We know that, 
and it's especially true with the protracted and dynamic 
situation that we all are very much aware of in the Middle 
East.
    People disagree. I get that. In a war that lasts nearly two 
decades, obviously strategies change along the way, but I 
believe President Trump is making real progress and we should 
let that progress play out. If it means that we can bring an 
end to this conflict, then we should all welcome that.
    So, again, Mr. Sopko, I want to thank you for appearing 
before our subcommittee today. You're a dedicated public 
servant and we are grateful for your service. We appreciate 
your time today. I look forward to your testimony.
    With that, Mr. Chairman, I yield back.
    Mr. Lynch. The gentleman yields. Once, again, I'd like to 
welcome our witness. Today we are joined by the Honorable John 
F. Sopko, the special inspector general for Afghan 
reconstruction. It is the custom of this committee to swear all 
witnesses. Could I please ask you to rise?
    Mr. Sopko, do you swear or affirm that the testimony you're 
about to give is the truth, the whole truth, and nothing but 
the truth so help you God.
    Mr. Sopko. I do.
    Mr. Lynch. Let the record show--please be seated. Let the 
record show that the witness has answered in the affirmative. 
The microphones are sensitive, so please speak directly into 
them. You've done this before on multiple occasions, I'm sure 
you know the routine.
    Without objection, your written statement will be made part 
of the record. Before I turn to you, though, I would like to 
make a motion, without objection, that the gentleman from 
Kentucky will be permitted to join the subcommittee on the dais 
and be recognized for questioning the witnesses. Without 
objection, so ordered.
    With that, Special Inspector Sopko, you are now recognized 
to give an oral presentation of your testimony.

  STATEMENT OF THE HONORABLE JOHN F. SOPKO, SPECIAL INSPECTOR 
             GENERAL FOR AFGHANISTAN RECONSTRUCTION

    Mr. Sopko. Thank you very much. Chairman Lynch and Ranking 
Member Hice, thank you for inviting me here today.
    This is the 23d time I have provided testimony to Congress 
since I was appointed the special inspector general in 2012. It 
may well be the most important hearing to date as you both are 
examining that very critical question, and that is: If there is 
to be sustainable peace in Afghanistan, are we prepared for the 
day after the signing?
    We are at a pivotal juncture in our over 18-year 
involvement in Afghanistan. The potential for a peace agreement 
with the Taliban is greater than at any time in recent history. 
While reaching a settlement will be challenging, sustaining it 
will be equally difficult.
    It will require coordination and deconfliction among the 
U.S. and Afghan Government agencies as well as our coalition 
allies and donors, but most importantly, it will require 
addressing the serious risks that we set forth in the 2019 
high-risk list that we testified about last year.
    That report identified, as you noted, eight key areas of 
the $137 billion reconstruction effort that we believe to be at 
a high risk of waste, fraud, mismanagement, or mission failure.
    As I explained last year, those risks do not miraculously 
disappear when the ink dries on any peace agreement. Moreover, 
if not addressed, they may threaten the sustainability of any 
peace agreement.
    Now, SIGAR is not taking a position on whether a peace 
agreement is achievable or practical, although, we hope for 
both. Nor do we speculate on what provisions it should include. 
Those decisions we leave to the administration, Congress, and 
the able negotiators.
    But what SIGAR's report does do is highlight areas that 
policymakers should be planning for now because, as I testified 
last April, failing to plan is planning to fail.
    Now I am heartened that under your leadership, Chairman 
Lynch and Ranking Member Hice, this subcommittee has attempted 
to get to the crux of our high-risk report; namely, what is our 
administration planning to do to address these serious threats?
    I am encouraged that you appreciate every effort must be 
taken to ensure that the progress purchased with the ultimate 
sacrifice of over 2,400 U.S. members of the armed services and 
over 2,000 contractors and nearly a trillion dollars in 
taxpayer dollars is not lost because we failed to adequately 
plan.
    Unfortunately, since my last appearance not much has 
changed on the ground in Afghanistan to diminish our concerns. 
The military situation is still a deadly stalemate. The Afghan 
economy extremely weak, corruption rampant, narcotics 
production growing, reintegration of ex-combatants problematic, 
women's rights threatened, and oversight restricted by 
widespread insecurity.
    Our newest quarterly report, which will be released in a 
few days, discusses all of these threats and, in particular, 
highlights that if peace is to be sustainable, financial 
support from donors will need to continue and may need to 
continue for years to come.
    Let me end with one additional observation, and I just came 
back from Afghanistan at Christmas time and I expect to go 
within a month, again. As Congress and the administration 
thinks about how much money should be spent on reconstruction, 
they need to consider how those expenditures will be monitored, 
and evaluated, and overseen.
    Now more than ever, I caution that if there is a peace 
agreement and continued assistance provided to the Afghan 
people, oversight needs to remain mission critical, otherwise 
you might as well pile up all the dollars in Euros in Massoud 
Circle in downtown Kabul and burn them for whatever good they 
can accomplish.
    I'm happy to, again, be here and answer any questions and 
particularly about the Afghan papers at appropriate moment. 
Thank you.
    Mr. Lynch. Thank you, Mr. Sopko.
    I recognize myself for five minutes for questions. Why 
don't we start with that. One of the key takeaways from the 
documents released by The Washington Post last month, the so-
called Afghanistan papers, discloses how data and information 
has been repeatedly distorted to paint a rosier picture for the 
American people about the war in Afghanistan.
    For example, to U.S. military adviser and retired Army 
Colonel Bob Crowley, his statement: Every data point was 
altered to present the best picture possible. Surveys, for 
instance, were totally unreliable, but reinforced that 
everything we were doing was right.
    This stood out to me because you got a person on the ground 
that is, you know, giving actionable intelligence, in a way, to 
the Congress in terms of the progress of how things are going 
there, also misleading the general public as well as its 
representatives, and so when we have that going on, we also 
have a heightened classification of certain documents that I 
and we have been getting for years and the American public have 
been getting for years in your report.
    So, just to amplify that a little bit. You used to send us 
in your reports a heat map of sorts where you showed the map of 
Afghanistan, you showed the areas where we were--or the 
Government of Afghanistan was basically in control of certain 
provinces and regions, it showed in a different color the areas 
where the Taliban was in control, and it showed areas where we 
were contesting or they were contesting government control.
    That stopped. That stopped with this administration. That 
was new and different, but so on top of the fact that we're 
getting inconsistent information, they're also concealing in 
some regard the information that we previously relied upon. 
According to the DOD, they stopped releasing this information 
because the indicator of success in Afghanistan was no longer 
the percentage of territory under government control, but 
rather, quote, ``U.S. and Afghan forces support of Ambassador 
Khalilzad's diplomatic effort.'' That's a different metric.
    Why would we--what's the reasoning for that, if you can 
shed some light on that in terms of going from objective 
evidence to something far more subjective and less evident? I 
guess, you know, if you're talking about whether people 
supported Khalilzad, that's a rather amorphous and subjective 
standard.
    It's difficult to follow, and I just--I'm troubled by it. 
It shows a rather diffuse and lack of focus target in terms of 
something that's driving, you know, a measurement or a metric 
that's driving our effort in Afghanistan.
    Mr. Sopko. You're right on point on changing the metrics. I 
can't give you an answer because there never was a real good 
explanation given to us for why district control and population 
control was no longer relevant. I think the point you make, 
chairman, is apropos of a broader problem we have. Every metric 
that we use to provide you, the Congress, and the American 
people in our quarterly reports, every metric that you would 
find useful is now either classified or no longer available.
    Now it's available some of it in a classified setting and I 
know chairman, you and I spent some time there briefing on it. 
You know how difficult it is to use that, but this was 
information that we had been providing publicly for years and 
then it's been taken away, so that is a problem. But I can't 
answer why they eliminated that.
    Mr. Lynch. So, when I was there in October, you've been 
there more recently, we asked General Miller why that was the 
case, why we were not getting that information in a form and in 
a context that I could actually talk to my constituents about 
because something like that is classified, even though I can go 
down to the--and I do.
    I go down to the SCIF and look at the heat maps and look at 
the other information, I can no longer discuss that with my 
constituents at town meeting or even among Members of Congress 
who don't have the necessary clearance, so that's problematic.
    But in October I did ask General Miller, you know, why--I 
pushed back and I know Speaker Pelosi did as well about denying 
us those maps and that information, and he acknowledged the 
difficulty that that presented to Congress and to the public.
    I want to know, to your knowledge, having been there more 
recently, are they still abiding by that policy of not giving 
the U.S. Congress that information in a public format? Have 
they still excluded it from your quarterly reports?
    Mr. Sopko. It's still excluded from our quarterly report. 
And you'll see in another--I think we've actually sent up the 
embargoed copy. I think it's released in two days, you'll see 
all of the material that's still classified. No, they're not 
collecting that information.
    Mr. Lynch. OK. Thank you very much. I'll yield to the 
ranking member, the gentleman from Georgia, Mr. Hice, for five 
minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    Mr. Sopko, I know we've discussed this issue that I want to 
bring up really quickly too before hitting a couple of others 
things.
    But there was something like 36, I believe, of the 1,900 
Afghan trainees have claimed asylum. We've got an estimated 83 
Afghan trainees who have gone AWOL, some are believed to be in 
Canada, who knows where else. But it's very high numbers and 
alarming numbers, and I know we've talked about this, but we're 
all aware now of the recent shooting at the naval air station 
in Pensacola and it just continues to raise concerns regarding 
the training of foreign nationals here on U.S. military bases.
    Can you give a quick update on the Afghan training program?
    Mr. Sopko. The best update I can give you is that the 
Department of Defense made a decision some time ago that they 
were no longer bringing Afghans into the United States for 
training. I don't know exactly where that is, if there's still 
some more coming in, but we did highlight and I think you and I 
had this colloquy last time, I know you were very concerned 
because of Moody Air Force base, which was doing a wonderful 
job, actually.
    It was the premier training center for our air program and 
they did a wonderful job, and they had no AWOLs from there, but 
apparently we've thrown the baby out with the bath. Rather than 
following the Moody approach to protecting and making certain 
these people don't go AWOL, the Defense Department just says 
we're not bringing any of them.
    So, I don't know if that's good or not. We've never equated 
it, but I think the Moody may be the last group that is still 
having some Afghans coming through and then that'll be done.
    Mr. Hice. To your knowledge, is that under way to where no 
more Afghan trainees are coming? Has that----
    Mr. Sopko. That is to the best of my knowledge.
    Mr. Hice. That is mine too. I just wanted to have it 
confirmed if we could get that. And those who have gone AWOL, 
do we have any update? Have they been located? Do we know where 
they are or are they still missing?
    Mr. Sopko. I don't think we have any information on that 
because that really gets into the Department of Homeland 
Security and what they've done with it. We have not--I can 
check with my staff, but I don't think we've done any followup 
on that.
    We checked, but we have no additional information since 
last time we chatted.
    Mr. Hice. OK. That's concerning still, and I would like to 
get some answers. We'll continue looking on that as well.
    Let's move on. In your written statement you mentioned that 
insurgent attacks on the Afghan National Defense at security 
forces and coalition forces are increasing. What is the reason 
for the increase? Have you all been able to determine?
    Mr. Sopko. The biggest problem, I think, General Miller and 
his predecessors have complained about is that the Afghan 
military and police, even though we train them not to do it, 
they stay in static positions and they're easy to pick off. The 
biggest problem we've seen with--and our trainers have seen 
with the Afghan militaries, they're not aggressive, they're not 
moving out.
    The only units that are really good at that are the special 
forces who are uniquely trained by our people, but the problem 
is they're in these small, static positions out in the middle 
of the interland and they usually get attacked and wiped out by 
the Taliban.
    Mr. Hice. There are some who believe that some sort of 
peace agreement with the Taliban, No. 1, would be possible, and 
No. 2, that if it did come about that it would decrease some of 
these attacks. What are your thoughts on that?
    Mr. Sopko. Well, we hope if there's an agreement, the 
attacks will go down. We're hoping there would be a 
reintegration of the 60 to 80,000 Taliban into the economy, but 
the concern that has been expressed to us is that the Taliban 
is not a monolithic organization, and the Taliban is also not 
ISIS and there are many other terrorist groups, so you may see 
a splintering.
    So, even the best analysis we have is, even if there is a 
peace agreement, there's going to have to be a robust Afghan 
military and police force to handle these other terrorist 
groups and other illegal groups that are armed roaming around 
the countryside.
    Mr. Hice. Yes. That's my last question. If that were to 
happen, what do you do with all these Taliban individuals 
integrating back in? Is there a plan for that?
    Mr. Sopko. Member Hice, that is so important. That's why 
this hearing is so important and what you're doing. We have to 
plan for that and we have a whole "lessons learned" report on 
reintegration and we explain how difficult it is, how expensive 
it is.
    So, you can't just all of a sudden overnight say, well, 
we're going to reintegrate 80,000 Taliban who are armed plus 
their families. You've got to start planning for it and that's 
why we totally support the efforts of this committee in trying 
to find out what is our government doing.
    Mr. Hice. Thank you. I yield back.
    Mr. Lynch. The gentleman yields.
    The chair now recognizes the gentleman from Vermont, Mr. 
Welch, for five minutes.
    Mr. Welch. Mr. Hice, you're asking the right questions. We 
need answers to those questions. Mr. Sopko is not the one who 
can answer them. We really have to have State and Defense here 
to answer those questions.
    So, I appreciate you asking them, but I would advocate for 
us as, you and our chairman too, pursue getting the state in 
here to answer them.
    Second, it's good to see you, Mr. Sopko. I've been working 
with you and your predecessors, and there's a couple of things 
that come up. No. 1, you have documented--your office has 
documented over the years the abject failure of the nation-
building enterprise. You have to be careful in your language. 
It's not your job to give political opinions or to give advice 
to this committee or the Congress as to what our policy should 
be.
    But what comes through very clearly is that the policy that 
we've had--by the way, a bipartisan basis with Presidents, I 
mean, Republican and Democratic Presidents, has been nation 
building in Afghanistan total, total and complete failure, pipe 
dream, wishful thinking.
    You don't say that, but the examples of the pipe dream 
policies and the unwillingness to come to the appropriate 
conclusions is evident. Just in the course of my time, Mr. 
Chairman, remember, there was--there were folks in the State 
Department who were only there for nine months, so they had to 
go around and they had to spend their money before they went 
out and they wanted to get books to libraries and they couldn't 
spend the money within the time before they left, so they had 
to order like expensive books from Amazon and a lot of these 
included art books with nude photos on them or depictions that 
just don't quite fit into Afghani libraries.
    The dam that we spent hundreds of millions of dollars on 
that basically didn't operate. The planes that were urgently 
needed that were sold for scrap at six cents a pound, millions 
of dollars it cost the taxpayers, all of that reflected the 
inability of this country to succeed on this wild notion that 
from here in Washington, we could build a nation in 
Afghanistan.
    The evidence you've provided is the one thing that has, at 
least, forced many in Congress, again, on both sides of the 
aisle to ask the question, does this policy work or is it a 
pipe dream? So, I just, No. 1, want to thank you, and, No. 2, 
it's on Congress to demand of the administration what is the 
policy, how is what your policy now different than what's 
failed before, and what are the decisions that we have to make? 
So, thank you for that.
    Do you have any recommendations for this committee about 
how we can get access to more information because it does 
appear Mr. Lynch was asking about this, that a lot of the 
classification system is based on whether it's good news, not 
classified; bad news, classified?
    Mr. Sopko. Again, thank you, Congressman Welch for those 
kind comments and you basically stole my thunder. Those 
findings we did lay out in the lessons learned report, so I 
think anybody who read The Washington Post articles would 
realize that there was nothing new there.
    We've been reporting problems, including mendacity, hubris, 
shaving records, the lobotomy, everything else that you 
mentioned. It's tough for me to tell you, Congress, how to do 
oversight. I mean that's, you know, what you're doing right now 
is what you need to do.
    Visiting the country is what you need to do. I think when 
the chairman goes--and I know it's a very difficult trip and 
it's a very dangerous trip and I don't, you know, lightly say 
it's an easy trip, but when you go out and you start talking to 
people, you talk to the troops, you talk to the AID people, you 
meet them in the dining hall, or you meet them after hours, 
it's amazing what you can learn. That's the way to do it.
    If you're not getting the records from Congress and you're 
not coming from the administration, I can't really tell you 
what more to do, so----
    Mr. Welch. Thank you.
    Mr. Lynch. The gentleman yields.
    The chair now recognizes the gentleman from Tennessee, Mr. 
Green, for five minutes.
    Mr. Green. Thank you, Mr. Chairman. As a guy who's deployed 
to Afghanistan, I think folks will be a little surprised with 
my questioning today, but first let me start by thanking you 
for being here.
    The Washington Post article detailed some potential 
deception. Are we investigating to find out who exactly 
deceived and is something happening to hold those people 
accountable for that deception?
    Mr. Sopko. Congressman, no, I don't think anybody is, and 
maybe if I could just take 50 seconds or 30 seconds to explain 
The Washington Post article and I know the ranking member 
alluded to that. First of all, we, meaning SIGAR, did not issue 
a report.
    Mr. Green. Understood.
    Mr. Sopko. We have been doing lessons learned reports since 
2014, actually at the recommendation of Members of Congress, 
also General Allen, Ambassador Crocker, and others who, when we 
issued these reports that identified airplanes that didn't fly 
and buildings that melted, they wanted to know what does this 
mean, you know? What does this all mean, Mr. Sopko? You keep 
finding failure after failure, so we decided to embark upon 
trying to learn some lessons from those 18 years.
    What happened is, in the course of that, we got a lot of 
information, reviewed a lot of cables, interviewed a lot of 
people. Some of the people we interviewed were reflective of 
what happened 10 years ago and they basically were saying, 
like, I think, General Lute and others, that you know, we 
didn't know what was going on, but that was sort of after the 
fact they're reflecting. It was very useful information in some 
areas, but a lot of the information was also talking about the 
war fighting and none of our reports deal with the war 
fighting.
    We deal with reconstruction and the training. We don't look 
at whether we should be in Afghanistan or not. So, when 
Ambassador Lute or General Flynn say we shouldn't be there, 
that's nice. It's his opinion. It's their opinion, but it 
doesn't help us do these lessons learned reports, which we've 
done seven. So, I think that explains it. It's not that these 
people were evil, they're just reflecting on what they saw and 
observed seven, eight years ago.
    Mr. Green. So, there were no falsified documents? There was 
no intentional deception to give a perception that was 
inaccurate?
    Mr. Sopko. I testified last week before the House Foreign 
Relations Committee and I mentioned that there is this--we've 
almost created a system that forces people in the government to 
give happy talk, success stories because they're over there on 
very short rotations. They want to show success.
    The whole system is almost geared to give you, and it goes 
up the chain of command, all the way to the President 
sometimes, he gets bad information from people out in the field 
because somebody's on a nine-month rotation. He has to show 
success and that goes up. Is it criminal? No. Is it wrong? Yes. 
What we need to do is, that's why you need to reach over and 
actually go out there and kick the tires yourself because 
that's what I discovered the first time I went over there.
    Mr. Green. I think I get your point that there's this, you 
know, people want to be successful, they put a rosy spin on it. 
We, in Congress, don't like to hear negative stuff. We don't 
seem to tolerate it very well, even despite the fact that that 
may be the only answer. I got it.
    I'm sure you're aware that an Android app can't run on an 
Apple operating system. Are we trying to run systems over 
there? Are we trying to create ways of doing business when the 
operating system won't ever allow us to do it? Meaning, are we 
wasting our time and if so, what happens to both Afghanistan 
and the United States if we just walk away?
    Mr. Sopko. Well Congressman, I don't know if I can answer 
the bigger question about whether we're wasting our time or 
not. I'm going to leave that to you and the President to 
decide, but we are giving them systems, whether it's military 
hardware or other systems that they can't use.
    One of the questions we asked early on is, do the Afghans 
know about what we're giving them? Will they use it? Do they 
want it? We couldn't even get government agencies to ask those 
questions. I have run across Afghans who said, `I didn't know 
that clinic was being built until it was given to us by the 
donors.'
    Mr. Green. In your lessons learned that you provide us, do 
you list those efforts of ours that have failed or that will 
continue to fail if we continue to push those?
    Mr. Sopko. Throughout all of our reports and the lessons 
learned as well.
    Mr. Green. They're in there.
    Mr. Sopko. We're happy to brief you on other reports coming 
out about that.
    Mr. Green. Thank you.
    Mr. Lynch. The gentleman yields back.
    The chair now recognizes the gentlelady from Illinois, Ms. 
Kelly, for five minutes.
    Ms. Kelly. Thank you, Mr. Chair, and thank you for calling 
this hearing today. As you noted earlier, the recent reporting 
by The Washington Post and the continued work of the special 
inspector general of Afghanistan reconstruction has shown that 
the American people have repeatedly been misled about the 
conditions in Afghanistan.
    Mr. Sopko, when you were with us before in April, you told 
the committee that you believed, and I quote: That transparency 
is the best policy for everybody. When it comes to Afghanistan, 
why does transparency matter so much?
    Mr. Sopko. Well, I think for two apparent reasons; No. 1, 
American lives are on the line. And if you just tell Congress 
the good news and not the bad news, Americans will die.
    Second, we have spent more money in Afghanistan on 
reconstruction than we did on the entire Marshall Plan to 
rebuild all of Europe, so it's a lot of taxpayers' dollars.
    And if you add the 700 million on the war fighting, we're 
close to a trillion dollars, so I think it behooves 
administration witnesses and IGs to speak truth to power and 
tell you what's going on and what's not going on.
    Let's be honest to ourselves. That is the real dishonesty. 
We have been dishonest to ourselves. I think a number of people 
coming here and testifying have tried to paint the good story. 
I don't know if it's for getting a promotion or it's just the 
American way. We also have this hubris, which I think was 
identified before, that we think we can turn Afghanistan into 
little America or another Norway. We can't. That's the hubris.
    Ms. Kelly. I would believe that you think part of that 
transparency is the ability for us to hear directly from the 
Department of Defense and the State Department?
    Mr. Sopko. Well, look, I worked 24 years in Congress 
working for Sam Nunn, John Dingell, and other people. I believe 
in openness and I believe that Congress has a right to know, 
but maybe I'm a minority these days.
    Ms. Kelly. I hope not.
    Earlier this month you testified before our colleagues on 
Foreign Affairs and were asked how Congress would stem the flow 
of inappropriate amounts of money to Afghanistan. Your answer, 
hold more hearings, specifically, hold more hearings with the 
Defense Department, the State Department, and USAID where we 
ask them to justify their budgets based on outcomes. At that 
hearing, and I quote, again, you said, Congress has to weigh in 
and say hold it and we want to know the truth as gory as it is 
and you continue to stand by that?
    Mr. Sopko. I do and if I can add--there's one other thing I 
did mention: there is, maybe incentivize honesty. One of the 
proposals I gave at that time, because I was asked by the staff 
to come up with proposals, is put the same requirement on the 
government that we impose on publicly traded corporations.
    Publicly traded corporations have to tell the truth 
otherwise the SEC will indict the people involved. They have to 
report when there's a significant event, so put that onus, call 
it the truth in government act if you want that you, in the 
administration, are duty bound by statute to alert Congress to 
significant events that could directly negatively impact a 
program or process, so incentivize honesty.
    Ms. Kelly. OK. Well, we've tried to get the Defense 
Department and the State Department, but they've been no-shows. 
What kind of signal do you think that sends if representatives 
from the administration don't respond to congressional 
requests?
    Mr. Sopko. You know, that's difficult for me to answer. I 
think you have to ask them. I showed up when I got called, so--
--
    Ms. Kelly. OK. I don't know, do you think they have 
something to hide or they don't want to share the bad news?
    Mr. Sopko. I think you're walking me into trouble on this. 
I can't----
    Ms. Kelly. I'm not trying to do that.
    Mr. Sopko. I can't impose. I think, again, you have to go 
back to the people you're trying to get in here.
    Ms. Kelly. OK. And just another set of questions, Mr. 
Sopko. In its 2019 high-risk list, SIGAR included instances of 
restricted oversight as a hindrance to reconstruction efforts. 
The report stated that, quote: With or without a peace 
settlement, the U.S. mission in Afghanistan and the 
reconstruction effort will continue to require vigorous 
oversight. Why is that the case?
    Mr. Sopko. Well, I think now more than ever because there 
are fewer State Department, AID people, and DOD people there, 
you need somebody watching the store and there will be a 
tendency, because of the security situation, decreased staffing 
to give the money directly to the Afghan Government or to give 
the money through third-party monitors, such as the World Bank 
and U.N. and other international organizations. We have 
reported in the past that, first of all, the Afghan 
Government's incapable of handling the money. We really need to 
do a ministerial assessment, ministry by ministry to determine 
whether they can handle our taxpayer money.
    Then, second, we have some real questions about some of 
these international organizations. The U.N. and the World Bank 
we've already identified have serious problems with monitoring 
it. So, what we're saying is, don't just focus on the troop 
level, don't just focus on the amount of money, focus on how we 
are going to protect the U.S. taxpayers' dollars. That's why I 
think now more than ever we have to keep our focus on that.
    Ms. Kelly. Thank you so much.
    I yield back the time I don't have.
    Mr. Lynch. The gentlewoman from Illinois yields.
    The chair now recognizes the gentleman from Kentucky, Mr. 
Massie, for five minutes.
    Mr. Massie. Thank you, Chairman Lynch.
    I'd like to start out by agreeing with my colleague from 
Vermont, Mr. Welch, that what we're doing here is nation 
building. This is--I mean, we're calling it reconstruction, but 
maybe that's because nation building, people understand what 
nation building is and they don't appreciate all the money that 
has been spent on it because they know, commonsense tells them, 
that it's not working.
    This feels like Groundhog Day, again, Mr. Sopko. I don't 
know how many hearings I've been in with you. You're 
consistent, I will say that, about uncovering the waste, fraud, 
and abuse. By the way, if there was ever any doubt whether we 
needed a SIGAR special inspector general for Afghan 
reconstruction, today's hearing hopefully clears that up 
because we invited the Department of Defense and the State 
Department to also give us answers and they're not here.
    If you didn't exist, if your department didn't exist, we 
would have nobody at this hearing today to give us any answers, 
so I appreciate you coming here.
    I want to start out in this hearing as I start out in all 
the other hearings where you show up and ask about the money. 
Let's start with the money. In 2015, I asked you how much we 
have spent. The number was 113 billion. You graciously came 
back in 2017, the number was 121 billion.
    Last year you were here, the number we spent was 132.3 
billion with 10.8 billion in the pipeline.
    Can you tell us how much we have spent on Afghanistan 
reconstruction at this point?
    Mr. Sopko. Congressman Massie, I can. The latest figure is 
136.97 billion as of December 31, so 136, you can round it off 
to 137 billion.
    Mr. Massie. That's staggering to me, but just for 
reference, the entire Federal budget for roads and bridges is 
50 billion, 50 to 60 billion. It's gone up a little bit. We 
could double our spending on our Nation's infrastructure for 
two or three years for what we spent in Afghanistan.
    You know, when the Afghanistan papers came out, the so-
called Afghanistan papers in The Washington Post, I think it 
was a shock to everyone, everyone except for the people who had 
read your reports because literally what they reported was what 
you have been bringing to Congress year after year for five, 
six, seven years in your lessons learned publications. I guess 
people just haven't been reading those.
    One of the problems we get and maybe this is why State 
Department and DOD didn't show up today is we get too much 
happy talk from them. I feel like we get the real talk from 
you, but let me give you an example of some of the happy talk 
we got in this committee when DOD did show up and you probably 
remember this, Mr. Sopko.
    Christine Abizaid, deputy assistant Secretary of Defense 
for Afghanistan and Central Asia, I asked her how effective our 
drug interdiction programs were and this is the happy talk I 
got. She said, well, it went down--the drug production went 
down one year. It had gone up all the years, but it had gone 
down one year. And somebody had the good wisdom to lean and 
whisper in her ear, there was a drought that year. So, that's 
why it went down that year, but it's consistently gone up.
    Then I said, how do you measure your success? And she 
started touting the amount of money they had spent and the 
number of flights and the fact that the Afghanistan was flying. 
So, that's the kind of happy talk we've gotten. We need more of 
the real talk that you've been giving us, but here's what I 
want to focus on.
    You've got eight high-risk areas here in this document that 
you gave us today and it's--I encourage my colleagues to read 
it. He's made it really thin. Most of these reports are thick 
because there's a lot of waste, fraud, and abuse. He's reduced 
it to eight things you can read now, okay, but the eighth one 
is the one that concerns me the most and that is restricted 
oversight.
    I mean, you're the only one here today, yet what I'm 
hearing you say is, some of the numbers that need to be 
reported are being classified and some of the numbers aren't 
even being monitored any more. Can you talk about that in the 
little remaining time we have?
    Mr. Sopko. Well, that is a problem. We're not getting the 
data, but the other problem we're starting to see--and every 
time I go over there now for the last year, people at AID, at 
State, and DOD say, oh, we don't have any people anymore who 
can answer your audit requests and please don't do another 
lessons learned report because we have nobody who can answer 
the mail.
    This is the concern I have and I believe Congressman Welch 
was leaning toward that and I didn't get a chance to answer, 
but the problem is as we reduce the number of troops, are we 
going to be reducing the people who are doing oversight over 
the 80 some billion dollars that the Defense Department has 
spent there? If we reduce like we did, the number of USAID 
officials, who's going to be around to monitor the money we're 
going to spend?
    You know the World Bank has predicted, even if there's 
peace, we're going to have to spend more money if there's 
peace. So, who's going to be there if you, quote/unquote, right 
size the embassy and right size the Department of Defense out 
there? There is nobody there to monitor.
    By the time an inspector--just so you know about IGs, there 
is a limitation to us. By the time we show up on a program, 
it's gone. It's like the TV detective serial, you see a white 
chalk outline of the body. The first line of defense is that 
soldier who's monitoring the contract or monitoring the Afghan 
Government, but if he comes back because there's talk now to 
reduce the 8,600, where are those 4,000 troops coming from? Are 
they gun toters or are they the people who are actually trying 
to answer the mail and oversee how we spend the money?
    This building of this empire you talk about that you don't 
want to see, well, there is a soldier or somebody from the 
Pentagon who is trying to oversee that. If he comes back in the 
first traunch, who's going to be protecting your money? That's 
my concern. That is the big concern.
    Getting out is a concern, but we've kind of worked our way 
around that. But you can't cut the oversight capabilities of 
AID, State, and DOD in this drive for what they call right 
sizing.
    Mr. Massie. My time is expired and the chairman's been very 
gracious, but I would just like to say before I yield back, we 
shouldn't spend a dime if we can't track a dime over there, and 
that's the way I feel about it.
    Thank you, Mr. Chairman.
    Mr. Lynch. The gentleman yields.
    Now the chair now recognizes the gentlewoman from the 
Virgin Islands, Ms. Plaskett, a very energetic and focused 
member of this subcommittee for five minutes.
    Ms. Plaskett. Oh, dear. The pressure.
    Thank you very much, Mr. Chairman, and thank you Mr. Sopko 
for coming here to speak with us and to share your thoughts and 
your concerns. We all, as you can hear, on this committee are 
concerned with our Afghan strategy. I think that across the 
board you have heard that it's one of the few times I feel like 
on this committee we've all had some agreement going on. It's a 
welcomed feeling.
    But one of the things I also have noticed and have a 
concern about is that under President Trump it seems that our 
policy now is geared more toward withdraw of U.S. forces and 
initially it appears that the administration's stated objective 
in Afghanistan was to achieve a peace agreement that ensures 
Afghan soil is never used again by terrorists against the 
United States, its allies, or any country, and allows American 
troops then to return home. You know, I think that that is what 
you were talking about - about national security.
    So, when you talk about the--when we talk about the Trump 
Administration's stated objective and our own national 
security, would you say, Mr. Sopko, that those are inextricably 
tied to one another?
    Mr. Sopko. I believe if I can answer--you're absolutely 
correct, ma'am, but also that has been our goal from the 
beginning is that, kick the Taliban out and try to help create 
an Afghan Government to keep the bad guys out from attacking 
us, so that's been a constant goal of all the administrations.
    Ms. Plaskett. However that goal seems to be very far in the 
distance. I mean, we have great difficulty in achieving that, 
correct?
    Mr. Sopko. Well, I think the obvious answer is that we got 
80,000 or 60,000 Taliban, plus you have 5 to 10,000, I think, 
ISIS members and you got 20 other terrorist groups there so 
obviously we have not succeeded in keeping the bad guys out or 
creating a government that can keep them out.
    Ms. Plaskett. So, then it would appear to me that the Trump 
administration, the administration's now goal is just to remove 
ourselves from the situation because we believe that we cannot 
meet the objectives that were originally stated. Do you have a 
sense of what that is?
    Mr. Sopko. I really don't have a good sense of what the 
strategy is other than we're looking for sustainable peace. I 
don't know exactly what that specifically means, so I'm not 
really the witness for that. The State Department witness could 
do that.
    Ms. Plaskett. Well, you know, unfortunately, we don't have 
either the State Department or the Defense Department here. It 
seems to be now a goal or a belief on the part of this 
administration that when Congress tells them to come to 
something, they don't need to follow that.
    But I know that you're not able to state what the stated 
policy is, but you had these eight high-risk areas that you 
thought were key to being impediments to us meeting those peace 
agreements, but I wanted to ask you, I know that you can't 
comment on what a potential peace deal with the Taliban should 
include or would look like, but assuming U.S. military withdraw 
is based on a timeline rather than meeting any of those high-
risk conditions, do you think that these risks you've 
identified in high-risk report would be greater or lesser?
    Mr. Sopko. If there is a precipitous withdrawal, is that 
what----
    Ms. Plaskett. So, if we have, as the administration has 
done, by stating specifically the time and the numbers through 
various sources, in October, General Austin Miller Commander of 
U.S. Forces in Afghanistan confirmed that the United States had 
already reduced its footprint in Afghanistan by 2,000 despite 
the fact that we have yet to reach a peace agreement with the 
Taliban--or at different points where a former administration 
talked specifically, Secretary Pompeo, his directive from the 
President, it has been unambiguous: End the endless wars, draw 
down, and reduce. So, with the Taliban understanding that, that 
our removal of troops is based on a timeline of the President, 
rather than the meeting conditions, do you think that the risk 
that you've identified will be greater or lesser?
    Mr. Sopko. I think the risk would be greater. I mean, if 
the U.S. pulled out all of its troops tomorrow--I'm talking 
about all of them. I can't make a distinction if we go down to 
8,600. If we pulled out all of them, the conflict would 
obviously continue as a stalemate; it would just be a lot 
bloodier stalemate. I think a number of people have said that 
eventually the Afghan Government would deteriorate.
    The worse thing that could happen to the Afghans--because 
they will continue to fight, the Afghan Government, but if the 
funding--remember: 70 percent, over 70 percent of the Afghan 
budget comes from the United States and the donors--if that 
money ended--I have said before, and I will stand by it--then 
the Afghan Government will probably collapse.
    Ms. Plaskett. Thank you for your assessment of that.
    With that, I just think--I can only think of those 
soldiers, those USAID individuals who have been there all these 
years, through their rotations, risking life, supporting the 
Americans' objective, to have that thrown away because we need 
to withdraw or troops at this point is just such a slap in 
their face.
    I yield back.
    Mr. Lynch. The gentlelady yields.
    The chair now recognizes the gentlelady from North 
Carolina, my colleague Ms. Foxx, for five minutes.
    Ms. Foxx. Thank you, Mr. Chairman.
    I want to thank our witness for being here today.
    Let me give a quick follow-up to the gentlewoman from the 
Virgin Islands. Isn't the Trump administration trying to 
neutralize the Taliban to make them a nonbelligerent group?
    Mr. Sopko. I believe that's part of our use of more 
munitions. That is one thing to drive them to the--that's the 
stated goal of driving them to the negotiating table.
    Ms. Foxx. Thank you.
    According to SIGAR's October 2019 quarterly report, the 
U.S. appropriated approximately $4.74 billion to efforts in 
Afghanistan in 2019. Is that correct?
    Mr. Sopko. I don't have the exact number, but that sounds 
about right.
    Ms. Foxx. OK. So, it is my understanding this money goes 
toward a variety of things, such as security efforts, 
government assistance, humanitarian aid, civilian operations. 
And you indicated that most of the money going to the 
government is coming from the U.S. So, is that right?
    Mr. Sopko. That's correct.
    Ms. Foxx. So how important is it that this money is being 
spent for its intended purpose, such as to support migration 
and refugee assistance, international narcotics control, and 
the Afghan Security Forces Fund?
    Mr. Sopko. It's very important, ma'am. That's the concern I 
think everybody has about corruption and diversion of funds.
    Ms. Foxx. The word ``corruption'' appears 80 times in 
SIGAR's October 2019 quarterly report. Is it safe to assume 
corruption is a significant problem plaguing Afghanistan?
    Mr. Sopko. I am sorry, ma'am, for interrupting you. It's a 
very serious problem. Everyone has acknowledged that.
    Ms. Foxx. OK. So, now can the American people be sure the 
money being spent--sent to Afghanistan is being spent for 
legitimate purposes and not being used for corrupt purposes?
    Mr. Sopko. As hard as we all try, I don't think I have a 
warm fuzzy feeling about the money being spent in its intended 
purposes. And I don't mean to be facetious, ma'am, but the 
former head of CSTC-A is an example. That is the Combined 
Security Training Command--Afghanistan estimated at one point 
that 50 percent of the fuel that we purchase for the Afghans 
disappears--50 percent. So, we're talking billions. So, it is a 
significant problem, ma'am.
    Ms. Foxx. So, what are the dangers if the U.S. were to turn 
a blind eye to this corruption?
    Mr. Sopko. One of the dangers?
    Ms. Foxx. What are the dangers?
    Mr. Sopko. Well, the danger is that--first of all, it would 
be a waste the taxpayers' dollars. But, second, I think the 
concern is that the money is being used--that it will actually 
hurt our security arrangement with the Afghans. I mean, some of 
the units may not be able to fight as well as they did because 
they are not getting fuel, they are not getting paid, et 
cetera. Actually, the biggest concern I think everybody has is 
not so much the casualties, but it's the number of troops who 
are quitting or disappearing from the Afghan military, and part 
of it is because of pay and leadership problems.
    Ms. Foxx. So, do you want to talk a little bit about how 
the United States has been involved in the anticorruption 
efforts in Afghanistan? What are some of the things that we are 
currently doing?
    Mr. Sopko. Well, what we are doing, and I must say the 
former Ambassador who just left probably summed it up best when 
he told the Afghans--and I don't think they liked to hear this 
as he was going out the door--that ``your future donations from 
the West will probably depend on how well you fight 
corruption.'' That was Ambassador Bass. But what we're trying 
to do is create a separate anticorruption justice center, and 
to goad the Afghans to use that, it is almost like creating the 
untouchables that we did in the 1930's here to focus on the big 
fish. The problem has been and we have documented this two 
years in a row because Congress--the Appropriations Committee 
asked us to assess their corruption capabilities. Their 
corruption capabilities leave a lot to be desired. So, we're 
being asked again by Congress to take a look at it. But we are 
trying to beef up their prosecutive capabilities, but you got 
to have a political will, and that's the problem we're all 
worried about.
    Ms. Foxx. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Lynch. The gentlelady yields.
    The chair is now pleased and honored to recognize the full 
committee chair of this committee, Chairwoman Maloney of New 
York, for five minutes.
    Mrs. Maloney. Thank you so much, Mr. Chairman.
    And I want to thank John Sopko for your service and also 
the chairman for holding this important hearing.
    I'd like to focus my questions on the importance of women 
in Afghanistan and the differences it has made with America 
allowing them to participate in the economy and in education.
    I recall, when we first went to Afghanistan, women were 
murdered and killed if they went to school. Now I'm told that 
they have made a tremendous progress over the past 18 years. 
They make up 14 percent of kindergarten to 12th grade, and 30 
percent of university students now are women, and there are 
more than 170 public and private higher education institutions 
across the country, even in the most difficult parts of 
Afghanistan. And I am told that women are the majority of 
teachers at these schools, which is important.
    According to some government reports, women make up to 27 
percent of government employees. Before, they were not even 
allowed to work. And they serve as ministers, deputy ministers, 
judges, and in many other positions.
    According to the United Nations, maternal mortality rates, 
they used to be second in the world, and they have fallen 
substantially. That is because there are so many women that are 
trained as midwives and health professionals now and are 
working to help other women. I understand there are over 530 
public and private hospitals and hundreds of health and 
subhealth centers. Even if these numbers are exaggerated, women 
appear to be an important part of the success that is 
happening, certainly in education and healthcare. So, wouldn't 
that alone make up our investments? Wouldn't that alone justify 
our investments in the country? I know the United Nations has 
made several reports that when women are educated and empowered 
and respected, the amount of terrorism in that country or in 
that village goes down. So, investing in women and allowing 
them to be part of the country and not killing them if they go 
to school, I think we've made a tremendous impact in that 
country. And I'm afraid, if we retreat and leave, that it will 
go back to the way it was before.
    So, my question is, you know, do you believe women have 
made a significant contribution to successes in education and 
healthcare? Also, if we left, as some politicians are 
proposing, wouldn't it fall back to the other way where they 
were so--where being a woman meant you were almost not alive in 
what you were allowed to do. Can you----
    Mr. Sopko. I'm happy to, Madam Chairman. I think you hit a 
good point and one of the successes that we have had in 
Afghanistan.
    But you've also raised a concern. And I must admit for all 
the trips I've gone there and all of the Afghan women I have 
talked to, I have not met one Afghan woman who trusts the 
Taliban. The concern is, if they are excluded from the 
negotiations or if the negotiations are done by men and they 
ignore the advances, it is going to be very bad for women in 
Afghanistan. So, that is a serious concern I think we all have.
    Mrs. Maloney. I would like unanimous consent to place in 
the record a letter that I've written to Secretary Pompeo 
expressing the same concern as the IG that women need to have a 
seat at the table in the peace talks so that their rights 
aren't traded away and lost.
    You mentioned the amount of corruption. Do you think it 
would be a way of addressing corruption if you had a certain 
percentage of the contracts, which are numerous coming from 
USAID and American-led efforts to help the country, that they 
go to women-led organizations so that maybe the gas would get 
into the automobiles for the military, maybe the money would 
get to the place that it was intended? Do you think if we 
required that certain amount of the money go to women-led 
organizations? Certainly any ideas that you have, I know that 
the women's movement here in America and around the world was 
pleading with the United States to have a seat at the table for 
women in the peace negotiations. Any of your ideas that you 
might have on how we can include women in the peace 
negotiations?
    Mr. Sopko. I would have to get back to you on that. I know 
we've had set-aside programs in the past. And Congress has 
actually designated a significant amount of money to the Afghan 
police and the Afghan military to recruit women in that area. I 
think there has been money set aside for women's programs by 
USAID, but I don't know how successful that has been.
    We reported on that in relationship to the military, and 
then the Defense Department classified that information--so the 
amount of women that were being recruited. And that was--they 
reversed themselves, but still there is a serious problem that, 
even though you have set aside money for certain things in 
Afghanistan, it is not spent. We're going to have a report 
coming out soon, ma'am, on the number of buildings we built for 
women in the Afghan military and police that are now vacant. 
You have to have a will on the Afghan men's side, and that's 
the problem we're facing.
    Mrs. Maloney. Mr. Chairman, may I ask another question and 
a request?
    Mr. Lynch. Of course. I do want to, without objection, 
order that your letter be entered into the record.
    Mrs. Maloney. Thank you.
    Mr. Lynch. And now you are recognized.
    Mrs. Maloney. But my question really was not more women in 
the military and more women in the police. My question was more 
women organizations being put in charge of the finances so it 
gets to the people and not to corruption.
    Years earlier I passed a bill that was part of the 
Appropriations Committee that $60 million going to Afghanistan 
had to be spent with or given to a women-led organization. I 
can get a copy of that legislation to you. And I would like to 
request, with the chairman's permission, a meeting with you and 
the Women's Caucus, if you could go over what happened to that 
$60 million. If the problem is corruption--and then I would say 
I represent a district that is a business district in New York 
City. It is the business capital of many different businesses. 
The stories that I hear from businessmen are just horrible, 
that all you of their contracts are let through corruption and 
payoffs and this kind of thing. If American business felt like 
they could be treated fairly, they would invest in Afghanistan. 
Maybe we need to look at any of the assignments and contracts 
because I hear they are incredibly corrupt. Business people now 
go around the country giving speeches: Don't go to Afghanistan; 
they are not going to treat you fairly, which is a horrible 
situation to be in.
    If American business felt that it was secure and honest, 
you'd have a lot of people coming in to help and to work and 
help the country.
    In any event, I want to thank you for your service and your 
leadership, it is an incredibly important assignment. I look 
forward to meeting with you again on what happened to that $60 
million, whether it was spent honestly and if it helped the 
people.
    Thank you.
    Mr. Sopko. Madam Chairman, I would be very happy to 
followup.
    And I think, apropos of that, we have actually embarked 
upon a new lessons-learned program specifically dealing with 
the gender issue. So, I know my staff who are working on that 
would love to meet with yourself and other interested parties 
up here as to how we should shape that lessons-learned report. 
So, I look forward to that conversation.
    Mrs. Maloney. Just giving it back to you, I would put women 
in charge of certain things. Being a police officer you're not 
in charge, unless you're Val Demings, who is a Member of 
Congress now. But running distribution of food or distribution 
of gasoline or distribution of assets for the country, I think 
that the numbers speak for themselves, that the women have made 
an incredible contribution to education and healthcare and 
improved the country. They could possibly improve the 
management and honesty of getting the money to the people and 
to a democracy and to a stronger country. You know, as we say 
in Congress, when you empower women, you empower the country. 
Maybe we should use that same motto in Afghanistan and see if 
given contracts to manage and do it honestly--that's the 
problem: You're saying money is going to situations, and it's 
all corrupt. But the men are all in charge.
    If you try it, try a few sample cases. I know that we 
created the human rights commission there. I've had some 
meetings with the people that run that, men and women. Maybe 
they could be empowered to help honestly move goods and 
services to the extent for the purposes that they were 
allocated.
    I want to thank you for your service. I just represent New 
York, and I know that the attack on New York was planned and 
put in place in Afghanistan. I hope and pray that we do not go 
back to a situation where elements of evil are there that can 
plot and kill people around the world as they did. They killed 
3,000 of my neighbors and constituents in New York City in 
their attack on 9/11. One of reasons we are there is to try to 
prevent that. So, I hope you're making that your priority, too. 
Thank you.
    Mr. Sopko. You're welcome.
    Mr. Lynch. The gentlelady yields. The chair now recognizes 
the gentleman from Texas, Mr. Cloud, for five minutes.
    Mr. Cloud. Thank you, Mr. Chairman.
    Thank you for being here. Thank you for your work and 
attention to Afghanistan.
    Just for the record, could you--what's your opinion of why 
we're in Afghanistan? Why do we have a U.S. presence in 
Afghanistan? Why did we go there originally?
    Mr. Sopko. The stated goal was to punish the people that--
the chairwoman just noted--attacked the United States and then 
to help build a government or help develop a government there 
and its military and police that could keep the Taliban or 
other terrorist groups that attacked us from coming back in.
    Mr. Cloud. How far would you say we are in that process? 
Are we having success?
    Mr. Sopko. Mixed success, as I mentioned to one of the 
other members. The problem, obviously, we haven't succeeded 
totally if there are 60-some thousand Taliban reportedly 
working in Afghanistan and fighting there. And there is a war 
going on, as we unfortunately just saw recently one of our 
planes just went down. So, obviously, we have not had total 
success.
    Mr. Cloud. Right. As been noted a number of times, 
corruption is all throughout your report in Afghanistan. One of 
the big issues here in Congress is we--you know, you can say 
the road to $23 trillion is paved with good intentions. We 
allocate money based on good intentions, but then we don't 
followup to make sure it is going to the right places. You 
talked about--I believe the U.N. agreement had us at--we were 
supposed to have 51 percent of the share, and supporting 
Afghanistan was supposed to be by other countries. You 
mentioned it's at 70 percent. What part of that is the U.S. 
share?
    Mr. Sopko. When I mentioned the 70 percent, what I'm 
referring to is the actual budget of Afghanistan; 70 percent of 
it is supported by donors. I don't have the actual breakout. We 
give the majority of that, but other donors do participate.
    Mr. Cloud. All right. And we have spent $133 billion in the 
reconstruction efforts so far?
    Mr. Sopko. That's how much has been appropriated, yes.
    Mr. Cloud. You talk about 50 percent of the fuel going to 
other countries or other uses than intended. What percentage of 
that would you say is actually going to its intended use, if 
you had to guess or estimate with your----
    Mr. Sopko. Well, we actually, at the request of former 
Congressman Walter P. Jones and others, we did an analysis on 
how much money was wasted in Afghanistan. It was a very 
difficult and long-term project. So, we looked at all of our 
contracts that we have reviewed, and so $52 billion of that 
$136 billion we looked at. And we basically determined that up 
to $15 billion--so about 30 percent--was either wasted or 
stolen. Now that was just of the universe that we had already 
looked at.
    Mr. Cloud. Right.
    Mr. Sopko. So, I believe--as a result of that, I believe 
number of Congressmen have sent a similar request to DOD, 
State, and AID IGs to have them do the same type of analysis so 
as to get a better picture.
    Mr. Cloud. If we are not funding what it was intended to 
do, what are we funding then in that roughly 30 percent?
    Mr. Sopko. Well, that money is either being stolen 
outright, or it went to programs that are a total waste. For 
example, if you look at our counternarcotics program--again, 
how do we define waste? There are three variables that we as 
IGs look at: inputs, outputs, and outcomes. We look at the 
outcome that the administrations told Congress they were 
supposed to resolved. Like in counternarcotics, it was the 
lessen the amount of opium; it was to end that scourge. Well, 
it has been a total waste. None of our programs have led to any 
reduction in opium in Afghanistan. As a matter of fact, opium 
is the largest export of Afghanistan. It's more than the licit 
crop. I think it is $1.2-to $2 billion in export. The licit, 
the pine nuts and everything else they sell, comes to less than 
a billion. So, we looked at that program and said that's a 
waste. We wasted $9 billion. We've accomplished really nothing.
    Mr. Cloud. What recommendations do you have for us in 
holding that to account? What things can we put in place to 
make sure the money gets to where it is supposed to go?
    Mr. Sopko. I think strictly asking people upfront in the 
administration: What are you trying to accomplish? And I'll go 
back to a letter that I sent--and I know Congressman Lynch 
knows about this--back in 2013, I sent a letter to the 
Secretary of Defense, Secretary of State, and to Administrator 
of USAID and I said: Can you list your top 10 successes and 
your bottom 10 failures and why? This would have forced the 
administration to rack and stack their programs, list what 
works, what doesn't, and try to understand what works there. 
They refused to answer the mail in 2013. So, in 2014, we 
basically came up with the lessons-learned program; I was 
trying to answer my mail to you. You have got to force the 
administration to be honest. It's not political. It's 
Republican, Democrat. The administration has to come in and 
tell you specifically: Why are you spending this money? What do 
you expect to accomplish at the end? Are you going to spend $9 
billion on counternarcotics, and the end result is that there 
is actually more opium being grown? Are you going to be spend 
$500 million on airplanes, and they can't fly? You're going to 
spend millions of dollars on buildings that melt? I mean, you 
need to hold people accountable. You need to bring in the head 
of those programs and say: What were you thinking? And don't be 
negative about it. Just say: Look, if it doesn't work, stop; do 
something else.
    But I am certain, Congressman, and I don't want to go 
over--I am already over. I apologize Congressman Lynch. Every 
commander I've met--I've met six of them. I've been doing this 
now for God knows how many years. Every one of them has said 
the summer fighting season we won. Well, if we won, what's 
defeat look like? And the AID Administrator was pumping out 
happy talk for years, so much so that we actually had the CIA 
came in and said what USAID is saying about the life expectancy 
is impossible arithmetically. It is impossible to double the 
life expectancy. People were coming in and giving you kites and 
balloons. They weren't telling the truth. You are the last 
bastion protecting the taxpayers' money. You have got to ask 
the tough questions. You can't just look at inputs. That's how 
much money you give them. You can't just look at outputs, how 
many shoes they bought for Afghans. What was the outcome? Can 
the Afghan military fight? Well, you don't know because they 
took all of the metrics for success. So, we don't know, and 
that's the problem.
    Mr. Cloud. Thank you.
    Mr. Lynch. The gentleman's time has expired--a long time 
ago.
    I now want to recognize one of the hardest working members 
of this committee and an exceedingly patient Member of 
Congress, the gentlewoman from Michigan, Mrs. Lawrence.
    Mrs. Lawrence. Thank you to an amazing chair.
    I'm here today as co-chair of both the Democratic Women's 
Caucus and also the entire bipartisan caucus for this Congress. 
I'm committed to strengthening the rights of women.
    Under the Taliban's regime, from 1996 to 2001, they 
brutally oppressed women and girls. Girls were banned from the 
workplace, denied healthcare, barred from education, and 
restricted from earning a basic livelihood. In fact, in 1997, 
one women's group called conditions in Afghanistan, and I 
quote, ``inhumane gender apartheid.''
    After the United States had disbursed almost $1 billion, 
talking about outcomes in Afghanistan for programs aimed at 
improving the health and status of women, millions of Afghan 
women have voted, and some now occupy prominent positions in 
society. I'm here today because I'm deeply concerned that if a 
peace agreement is reached, the Taliban will revert back to its 
old ways of repressing women and girls.
    Today, sir, you wrote in your opening statement that an 
important question for the State Department would be, and I 
quote, what can the United States do to ensure that women's 
rights, as currently enshrined in Afghan law are protected in a 
post-peace agreement environment in which the Taliban may 
become part of the political system?
    Unfortunately, the State Department isn't here, refused to 
appear. I can't ask them. So, I'm going to ask you, sir. Can 
you give me any assurances or provide an explanation of how we 
plan to protect women rights in Afghanistan's following a 
potential peace deal?
    Mr. Sopko. I can give you no assurances that we will--that 
the peace deal will protect women. I don't know what's going to 
be included in the peace deal. A lot of this is also relying on 
the Afghans negotiating with the Taliban, the Afghan Government 
and people. So, I personally can't give you any assurances 
because I don't know where that's going to end up. If this is 
important to Congress and to the administration----
    Mrs. Lawrence. That's my next question.
    Mr. Sopko. If it is important--and, again, that's a policy 
decision that only you and the administration can make. But if 
you decide this is important, then the biggest shtick you have 
for the Afghans as well as the Taliban because the Taliban 
wants foreign assistance too; that is what has been reported--
is that 70 percent of the budget, those billions of dollars 
that they will want, and you have to hold their feet to the 
fire. It's called conditionality: So, if you want assistance, 
you can't go back to your old ways?
    That would be the way I would bargain this. But that's a 
policy decision that Congress and the administration has to 
make, and then somebody has to stick with it. We have to be 
brave enough to say ``no'' to people. Now the answer then, what 
happens? If you pull the money, then the thing falls into civil 
war. So, you have to negotiate it very carefully.
    Mrs. Lawrence. Mr. Chairman, I am constantly confronted in 
America how we have policies and laws that even in 2020 create 
obstacles and barriers for women, and we have been very 
successful in addressing those in the past and have so many 
more to address. I want to make sure that I'm on the record 
saying that we need to ensure that we use every level of 
influence and power and to ensure incorporate in this peace 
deal is the protection of women in Afghanistan.
    I thank you. And I yield back.
    Mr. Lynch. That's on the record.
    Let's see, before we go to the second round, I do have a 
procedural matter here, I'd like to enter into the record a 
report to Congress offered by the Department of Defense in 
coordination with the Department of State, dated December 2019, 
so a month ago, entitled ``Enhancing Security and Stability in 
Afghanistan.''
    Without objection, so ordered.
    Mr. Lynch. Let's see. We're beginning the second round. So, 
let's see--I understand--Mr. Green is going to take your time 
first.
    I now recognize the gentleman from Tennessee, Mr. Green, 
for five minutes.
    Mr. Green. Thank you, Mr. Chairman.
    I'm still kind of stuck at this 100,000-foot view because I 
think, if we get that wrong, everything else we do down below 
is a waste of time. Clausewitz, I don't know if you studied 
much. I'm an ex-military guy. So, a lot of us were taught about 
Clausewitz and his strategy, his appreciation of strategy. One 
of the things that he sort of came up with is this concept of 
the center of gravity. So, if you were fighting a war, a 
military battle, you would look for, what is the center of 
gravity? What is the one thing that, if you turn that, you win 
the day; victory is at the end? It might be the terrain. If you 
hold the terrain or if it is the defeat of the military itself 
or if it is controlling the cities, what is the center of 
gravity?
    Fighting in Afghanistan, I think our guys got it right in 
the beginning: finding the centers of gravity of the warlords, 
et cetera, and taking control of the train. People, hearts and 
minds as a center of gravity, the government as a center of 
gravity: now we're trying to win the peace as opposed to win 
the war. My question to you is, what is that center of gravity, 
what is that one thing we've got to get, people's hearts and 
minds, value systems, ideology, what is it we've got to flip in 
order to be successful there?
    Mr. Sopko. Boy, that's a very good question, Congressman. 
I'll try to take a stab at it. And this comes out of our 
lessons-learned report on stabilization, which is that period 
between our military coming in and clearing out the bad guys; 
we reinsert the Afghan Government with certain development 
programs to try to win the residents over. That's that period, 
stabilization period, to summarize it. We need to have a 
government that the Afghan people trust and believe in, and it 
offers a modicum of services that those people want because the 
difficulty we have is that, for example, Afghan people want a 
little bit of justice; they don't want to have to pay a bribe 
to get it. What we gave them were a bunch of courthouses that 
look nice, that would fit in any American city. But that's not 
what the Afghan people wanted; they wanted a modicum of justice 
that they didn't have to pay a bribe. So, I would go back, if 
we are going to win over there, it goes back to winning the 
hearts and minds, but it is not going to be a U.S. soldier 
winning the hearts and minds. We have got to have a government 
that is trusted and believed and supported by the average 
Afghan. And the majority of the Afghans don't live in the 
cities. They live out in the hinterland, and out in the 
hinterland, it is bandit country.
    Mr. Green. You know, you talk about corruption and all 
those things--we gave them a courthouse, but we didn't give 
them the system that----
    Mr. Sopko. We didn't give them justice; that's what we 
didn't give them.
    Mr. Green. Right. So, what's the barrier to keep--I mean, 
okay. We built a building and thought we did a great job, but 
what has to get fixed for them to get that justice? Is there 
some ideology? I mean, what pushes corruption in that space or 
in that place? I mean, corruption comes from an ideology; 
corruption comes from value systems. Is there something there 
that we can flip, that we can turn, that we can change that 
will be successful?
    Mr. Sopko. I don't believe--and I know what you're reaching 
for. I can't give you a silver bullet. I really don't know. 
I'll think about, and I am happy come back and talk to you more 
about it.
    Mr. Green. Let's get coffee or lunch. If we don't fix that 
piece of it, we can layer everything about America over top of 
it and it will never work. That's my concern.
    Mr. Sopko. A number of people agree with you on that. And 
it isn't just cultural. I mean, I spent--I grew up fighting 
organized crime with the Department of Justice, and they had a 
different morality the Mafia and what Cosa Nostra did, but it 
was a subgroup of the broader U.S. culture. But there, 
corruption is not just taking a bribe; it's endemic. It's 
tribal. It is part of that society, and it is extremely 
difficult to overcome. It is how the system works. In part, one 
of the findings we have of our lessons-learned program is you 
really have to understand the Afghan people, their way of life, 
their culture, and all of that before you go in. I don't think 
we really did. We didn't appreciate that, and so we contributed 
a problem by just pouring a lot of money too fast around there.
    But I don't have an answer, and I'll be honest with you: I 
would love to sit down and chat with you, and I'll bring smart 
people, people a lot smarter than me. I just have the big 
mouth; I don't have the brains so.
    Mr. Green. I doubt that.
    I yield back.
    Mr. Lynch. The gentleman yields back.
    So, we do not have the State Department and Defense 
Department witnesses, as we had requested, but we do have their 
report from December of last year, a month ago. Are you 
familiar with this 12/25 report?
    Mr. Sopko. Yes, I am, chairman.
    Mr. Lynch. So, this is a report to Congress required by the 
Levin and McKeon National Defense Authorization Act back in 
2015. We get this report every year. One of the important parts 
of this is it discusses the role of the Special Representative 
for Afghan Reconciliation, Zalmay Khalilzad. He's the one that 
is doing the negotiation with the Taliban. And during June, 
July, and August of last year, the Taliban and our special 
representative engaged in negotiations, in nine separate rounds 
of negotiations, and they came up with four elements of an 
agreement. And I just want to recount those. Some of them are 
not surprising, three of them anyway. No. 1, the assurance that 
the Taliban will not be allowed to foster--excuse me, the 
Taliban would not allow terrorists to occupy the country, as 
happened before, concerns raised by the chairwoman. They wanted 
a timeline for U.S. withdrawal. They wanted a commitment by the 
Taliban to meet with the government of Afghanistan because they 
are not on negotiations right now. No. 4 surprised me, and one 
other section I think should become No. 5: No. 1, they didn't 
talk about the status of women. That's not a major component of 
their agreement. That's a huge problem, for the reasons that 
have all been stated here, especially by Ms. Lawrence, and the 
chair, and also by Ms. Plaskett. The other is, instead of 
having a cease-fire, which was our original request, they are 
now saying they want--and I'm quoting, a reduction in violence 
around the areas from which the United States is withdrawing. 
So, I mean, as I read that, we were asking for a cease-fire, 
cessation of violence in the country, a peace agreement. Now 
we're saying: Just don't shoot at us while we're leaving. 
That's the way I read this.
    I am just curious. You have followed these negotiations and 
the terms of what we were trying to negotiate.
    Mr. Sopko. But Mr. Chairman----
    Mr. Lynch. Is that how you understand that last section?
    Mr. Sopko. Mr. Chairman, I am not involved in the actual 
negotiations, but I am aware of this. This is an official 
Department of Defense document.
    Mr. Lynch. Right.
    Mr. Sopko. And I read it the same way you do. I mean, it 
just basically--this is what the Department of Defense says was 
the deal presented to the President, and thank goodness he 
didn't agree to it. It just basically says: Don't shoot at us 
while we're going out the door.
    It sounds a lot like what the Brits did back in the 1800's 
when they left Kabul, and they all got wiped out. Yes, I mean, 
I don't think anybody should trust the Taliban to secure our 
peace or the peace of our soldiers.
    Mr. Lynch. The other that is deeply concerning: We went to 
Saudi Arabia a couple of months ago, and there has been this 
flow of funding from the Gulf, funding really Wahhabi, very 
extreme madrassas in northwest Pakistan and also southern 
Afghanistan, and they are pumping out--this is the farm team 
for the Taliban, these Wahhabi and Deobandi madrassas, very, 
very extreme. That's the farm team. So, these young men come 
up, and they become part of the Taliban. They view women as 
personal property; I can just say that. You know, we drove from 
Kandahar city all the way down to Spin Boldak on the Pakistani 
border, and women are, unless they are--they are not allowed 
out of the house unless they are in the presence of a male in 
their family. They have no range of movement, no freedom of 
movement. I have great misgivings about delivering the women of 
Afghanistan into the hands of the Taliban. That would reverse--
that would be a disgrace. That would be a black mark on the 
United States of America and all freedom-loving nations if we 
were to allow that to happen.
    I'm just very, very disappointed in the terms of these 
negotiations as I see them. I'm hoping that this is not the 
road we're down on. And one of the reasons I asked to have 
State Department and Department of Defense here is so that I 
could ask them about this, and they refused to attend. We're 
going to having a vote later on this week on repealing the 
AUMF, the Authorization for the Use of Military Force, that was 
agreed to back in 2003. I tell you what: The fact that the 
State Department and the Defense Department have refused to 
come before this committee and work for Congress, I'm going to 
vote for repealing the AUMF. That's the only power I have left. 
If they are not going to come in and talk to us and not give us 
evidence, then I have to take that away to the degree that I 
possibly can. This is not the way this country was meant to 
operate. You know, we are supposed to be coequal branches of 
government and supposed to be respectful of one another and try 
to work for the common good of the people of this country. I 
just see a serious breakdown in this regard. So, that's the 
only way I can push back, but I'm going to do it.
    So, I don't know, Mr. Chairman--Mr. Vice Chairman, sorry, 
ranking member, I keep going down in elevation. I don't know if 
you have anything further to add.
    With that, let me just, first of all, thank you, our 
witness, for your willingness to come before the committee and 
help us with our work. Members will have five days during which 
to submit questions to the witness, and we are hopeful that you 
may be able to get back to us. I know you've made some 
commitments to the chair and to others to work with them on 
both sides of the aisle here.
    Without objection, all members will have five legislative 
days within which to submit additional written questions to the 
witness, which will be forwarded to the witness for your 
response. And I please ask that you respond as promptly as you 
are able.
    So, this committee is planning a codel to Afghanistan, and 
I will give you a chance to respond, and we are extremely 
desirous of getting you out to some areas, maybe to the 
training and to the TAACs, east, west, north, south, to maybe 
look at some of the things that you want to give further 
attention to, just like this Oversight Committee.
    I'm sorry. Do you have it any last remarks?
    Mr. Sopko. Mr. Chairman, I'm happy to help you and any 
other member of the committee in preparing for that trip and 
also identifying places to see.
    Could I ask just one thing to be introduced into the 
record?
    Mr. Lynch. Of course.
    Mr. Sopko. I know there were some questions by the ranking 
member about the Afghanistan papers in The Washington Post. I 
did a letter to the editor trying to correct the record on that 
report. Could I ask that that be submitted as part of the 
record?
    Mr. Lynch. Without objection, so ordered.
    Mr. Sopko. I think that clarifies our role. I think a lot 
of people were confused and thought we issued a report. We 
answered a FOIA--by law, you have to answer a FOIA--and gave 
those documents to them. We are still producing lessons-learned 
reports, as I said to the chairman, one on gender issues. So, 
we think they are very useful, and they are very helpful.
    Mr. Lynch. Again, we thank you very, very much for your 
great work. You've been doing it for a while, and we are 
extremely grateful for all you do and your staff as well, both 
here and in Afghanistan. Thank you.
    Mr. Sopko. Thank you.
    Mr. Lynch. The hearing is now adjourned.
    [Whereupon, at 11:46 a.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
